   DEPARTMENT OF HEALTH & HUMAN SERVICE                             OFFICE OF INSPECTOR GENERAL

                                                                    Office of Audit Services, Region III
                                                                    Public Ledger Building, Suite 316
                                                                    150 S. Independence Mall West
                                                                    Philadelphia, PA 19106-3499

June 24, 2010

Report Number: A-03-10-10004

Ms. Deborah A. Morrison, R.N., M.G.A.
Vice President, Quality Improvement/Risk Management
Providence Hospital
1150 Varnum Street, NE
Washington, DC 20017

Dear Ms. Morrison:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Payments for Outpatient Infusion Therapy, Lithotripsy, and
Blood Administration Services Provided at Providence Hospital, Washington, DC. We will
forward a copy of this report to the HHS action official noted on the following page for review
and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to contact me at
(215) 861-4470 or through email at Stephen.Virbitsky@oig.hhs.gov, or contact Bernard Siegel,
Audit Manager, at (215) 861-4484 or through email at Bernard.Siegel@oig.hhs.gov. Please refer
to report number A-03-10-10004 in all correspondence.

                                             Sincerely,



                                             /Stephen Virbitsky/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Ms. Deborah A. Morrison, R.N., M.G.A.

cc:
Michele A. Daley-Ryan
Manager
Monitoring & Inspections
Highmark Medicare Services Inc.



Direct Reply to HHS Action Official:

Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, Missouri 64106
 Department of Health & Human Services
            OFFICE OF

       INSPECTOR GENERAL





  PAYMENTS FOR OUTPATIENT

      INFUSION THERAPY,

       LITHOTRIPSY, AND

BLOOD ADMINISTRATION SERVICES

         PROVIDED AT

    PROVIDENCE HOSPITAL,

       WASHINGTON, DC




                       Daniel R. Levinson

                        Inspector General


                           June 2010

                         A-03-10-10004

                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                            Notices 



    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov
                       HU                   U




 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as 

 questionable, a recommendation for the disallowance of costs 

 incurred or claimed, and any other conclusions and 

 recommendations in this report represent the findings and 

 opinions of OAS. Authorized officials of the HHS operating 

 divisions will make final determination on these matters.

                                   EXECUTIVE SUMMARY


BACKGROUND


Pursuant to Title XVIII of the Social Security Act (the Act), the Medicare program provides
health insurance for people aged 65 and over and those who are disabled or have permanent
kidney disease. The Centers for Medicare & Medicaid Services (CMS) administers the program.

Prior to October 1, 2005, section 1816(a) of the Act authorized CMS to contract with fiscal
intermediaries. For purposes of this report, the term "Medicare contractor" means the fiscal
intermediary, carrier, or Medicare administrative contractor, whichever is applicable. Medicare
contractors use CMS’s outpatient prospective payment system to process and pay Medicare
Part B claims for outpatient hospital services submitted by hospitals (providers) on a rate-per­
service basis using the ambulatory payment classification group assigned to each service.

CMS requires providers to bill accurately using the appropriate revenue codes and Healthcare
Common Procedure Coding System (HCPCS) codes and to report the correct units of service
performed. Revenue codes identify the cost center used on the hospital’s annual cost report.
HCPCS codes are used to identify and group services into an ambulatory payment classification
group. When providers performed multiple procedures for the same beneficiary on the same
date of service, the system pays the maximum allowable payment for the first procedure and,
generally, half the maximum allowable payment for each additional procedure. For other
services, Medicare only pays for one service per day, regardless of the number of procedures
performed. Payment for some specific outpatient services is included in the payment for the
primary surgical procedure. Medicare refers to these types of services as “packaged” or
“bundled” services. Medicare does not allow payment of bundled or packaged services on a
rate-per-service basis.

Providence Hospital (the hospital) is a 408-bed community hospital located in the District of
Columbia. The hospital is a member of Ascension Health, a national Catholic health system of
nonprofit corporations. Before October 1, 2005, CareFirst of Maryland was the fiscal
intermediary for the hospital. On October 1, 2005, Highmark Medicare Services (Highmark)
became the hospital’s fiscal intermediary and, subsequently, on October 24, 2007, the Medicare
administrative contractor. As the current Medicare contractor for the hospital, Highmark is
responsible for collecting overpayments for the hospital’s claims.

OBJECTIVE

Our objective was to determine whether payments received by the hospital from its Medicare
contractor were appropriate for outpatient infusion therapy, lithotripsy, and blood administration
services billed by the hospital.

SUMMARY OF FINDING

Payments received by the hospital from its Medicare contractor for 1,448 claims were not
appropriate. Each of these claims had errors relating to outpatient infusion therapy, lithotripsy,
or blood administration services. As a result, the hospital received overpayments totaling
$127,391. The hospital received $140,143 for 1,519 outpatient services, rather than the


                                                 i
allowable amount, $12,752 for 40 outpatient services, resulting in overpayments totaling
$127,391 for 1,479 outpatient services. The hospital stated that it received these overpayments
because it misinterpreted Medicare guidelines related to the billing for these services.

RECOMMENDATIONS

We recommend that the hospital:

   •	 return the $127,391 for the 1,479 outpatient procedure overpayments and

   •	 review claims with these outpatient services paid by the Medicare contractor after

      December 31, 2007, and return any overpayments identified.


HOSPITAL COMMENTS

In written comments, the hospital stated that it reviewed the 1,519 services billed and agreed that
the claims included payments for 1,479 services that Medicare did not cover. The hospital’s
comments are included in the Appendix.




                                                 ii
                                                  TABLE OF CONTENTS


                                                                                                                                     Page

INTRODUCTION...................................................................................................................... 1


          BACKGROUND ............................................................................................................. 1

              Medicare Contractors............................................................................................1

              Hospital Outpatient Prospective Payment System................................................1

              Outpatient Services ...............................................................................................2

              Providence Hospital ..............................................................................................3


          OBJECTIVE, SCOPE, AND METHODOLOGY ............................................................3

               Objective ...............................................................................................................3

               Scope.....................................................................................................................3

               Methodology.........................................................................................................3


FINDINGS AND RECOMMENDATIONS .............................................................................4


          PAYMENT FOR SURGERY-RELATED INFUSION THERAPY SERVICES ............4


          PAYMENT FOR OUTPATIENT SERVICES GREATER THAN ONE........................5

              Multiple Infusion Therapy Services......................................................................5

              Multiple Lithotripsy Services ...............................................................................5

              Multiple Blood Administration Services ..............................................................5


          RECOMMENDATIONS..................................................................................................6


          HOSPITAL COMMENTS ...............................................................................................6


APPENDIX

          PROVIDENCE HOSPITAL COMMENTS




                                                                    iii
                                                  INTRODUCTION


BACKGROUND

Pursuant to Title XVIII of the Social Security Act (the Act), the Medicare program provides
health insurance for people aged 65 and over and those who are disabled or have permanent
kidney disease. The Centers for Medicare & Medicaid Services (CMS) administers the program.

Medicare Contractors

Prior to October 1, 2005, section 1816(a) of the Act authorized CMS to contract with fiscal
intermediaries. 1 Medicare contractors process and pay Medicare Part B claims submitted by
hospital outpatient departments (providers). Medicare contractors also conduct reviews and
audits, and safeguard against fraud and abuse. CMS’s Intermediary Manual, Pub. 13, part 3,
section 3700, provides that Medicare contractors must maintain adequate internal controls over
automatic data processing systems to prevent increased program costs and erroneous or delayed
payments. To process providers’ claims for hospital outpatient services, Medicare contractors
use the Fiscal Intermediary Standard System and CMS’s Common Working File. These systems
can detect certain improper payments during prepayment validation.

Hospital Outpatient Prospective Payment System

Pursuant to the Balanced Budget Act of 1997, P.L. No. 105-33, CMS established the Prospective
Payment System for Hospital Outpatient Services (Final Rule), effective July 1, 2000. 2

CMS’s Medicare Claims Processing Manual, Pub. 100-04 (Manual), requires providers to bill
accurately using the appropriate revenue codes and Healthcare Common Procedure Coding
System (HCPCS) codes and to report the correct units of service performed. 3 Revenue codes
identify the cost center used on the hospital’s annual cost report. The outpatient prospective
payment system uses the HCPCS code to identify and group services into an ambulatory
payment classification group.

Medicare contractors use CMS’s outpatient prospective payment system to pay for outpatient
hospital services on a rate-per-service basis using the ambulatory payment classification group
assigned to each service. When providers performed multiple procedures for the same
beneficiary on the same date of service, the system pays the maximum allowable payment for the
first procedure and, generally, half the maximum allowable payment for each additional


1
  Section 911 of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003, P.L. No. 108-173,
required CMS to transfer the functions of fiscal intermediaries and carriers to Medicare administrative contractors
between October 2005 and October 2011. Most, but not all, of the Medicare administrative contractors are fully
operational; for jurisdictions where the Medicare administrative contractors are not fully operational, the fiscal
intermediaries and carriers continue to process claims. For purposes of this report, the term "Medicare contractor"
means the fiscal intermediary, carrier, or Medicare administrative contractor, whichever is applicable.
2
    See 65 Fed. Reg. 18433-18820 (April 7, 2000).
3
    See chapter 1, section 80, and chapter 4, section 20.


                                                            1

procedure. For other services, Medicare only pays for one service per day, regardless of the
number of procedures performed.

Payment for some specific outpatient services is included in the payment for the primary surgical
procedure. Medicare refers to these types of services as “packaged” or “bundled” services.
Medicare does not allow payment of bundled or packaged services on a rate-per-service basis.

Outpatient Services

Infusion Therapy Services

Infusion therapy is the administration of fluids and medication through an intravenous injection.
For nonchemotherapy infusion, providers generally bill using revenue code 0260 (intravenous
therapy) and HCPCS code Q0081 (infusion therapy–other than chemotherapy). For
chemotherapy infusion, providers generally bill using revenue code 0335 (radiology–therapeutic
and/or chemotherapy administration) and HCPCS codes Q0083 through Q0085 (chemotherapy).
Beginning January 1, 2005, CMS changed the HCPCS codes for infusion therapy services
annually. 4

During outpatient surgical procedures, patients receive nonchemotherapy infusion therapy for
hydration and the administration of other injectable drugs, including anesthesia. Generally,
Medicare does not pay for these infusion therapy services separately because the payment for the
surgical procedure includes payment for these packaged services.

When a provider administers nonchemotherapy infusion that is not part of a surgical procedure
or administers a chemotherapy infusion, Medicare pays providers only for one infusion therapy
service per visit, regardless of the number or volume of different fluids infused. Medicare pays
for multiple infusion therapy services provided on the same day only when they are performed
during separate visits.

Extracorporeal Shock Wave Lithotripsy Services

Extracorporeal shock wave lithotripsy (lithotripsy) is a non-invasive method of treating kidney
stones using a device called a lithotripter that uses acoustic shock waves generated outside the
body to break up kidney stones in the upper urinary tract. Generally, providers bill for lithotripsy
procedures using revenue code 0790 (extracorporeal shock wave therapy) and HCPCS code
50590 (lithotripsy). Some providers bill for lithotripsy procedures using revenue code 0360
(operating room services) and HCPCS code 50590 (lithotripsy).

Blood Administration Services

Blood administration includes the transfusion of blood and any blood product. Generally,
providers bill for blood administration using revenue code 0391 (blood storage and processing–
4
  For calendar years 2005 through 2007, the HCPCS codes used, as appropriate, for the first/subsequent units
administered per visit were 90780/90781, C8950/C8951, and 90760/90761, respectively. Before 2007, Medicare
did not generally pay for quantities greater than one unit per visit. However, Medicare required providers to report
the total number of hours of infusion therapy administered. Beginning 2007, and depending on the type of service
provided, Medicare paid for subsequent units at a reduced rate.


                                                          2

blood administration) and HCPCS code 36430 (transfusion–blood or blood components).
Medicare pays providers for only one blood administration service per day, regardless of the
number or volume of different blood products transfused. Providers bill and Medicare pays for
the transfused blood and blood products separately.

Providence Hospital

Providence Hospital (the hospital) is a 408-bed community hospital located in the District of
Columbia. The hospital is a member of Ascension Health, a national Catholic health system of
nonprofit corporations. Before October 1, 2005, CareFirst of Maryland was the fiscal
intermediary for the hospital. On October 1, 2005, Highmark Medicare Services (Highmark)
became the hospital’s fiscal intermediary and, subsequently, on October 24, 2007, the Medicare
administrative contractor. As the current Medicare contractor for the hospital, Highmark is
responsible for collecting overpayments for the hospital’s claims.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether payments received by the hospital from its Medicare
contractor were appropriate for outpatient infusion therapy, lithotripsy, and blood administration
services billed by the hospital.

Scope

We reviewed payments totaling $140,143 that the Medicare contractor paid the hospital for
1,519 outpatient infusion therapy, lithotripsy, and blood administration services billed on
1,448 claims from January 1, 2003, through December 31, 2007. We limited our review of the
hospital’s internal controls to those applicable to these outpatient service claims because our
objective did not require an understanding of all internal controls over the submission and
processing of claims. Our review allowed us to establish reasonable assurance of the
authenticity and accuracy of the data obtained from the National Claims History file, but we did
not assess the completeness of the file.

We conducted fieldwork from November 2009 through January 2010. Our fieldwork included
contacting the hospital.

Methodology

To accomplish our objective, we:

   •	 reviewed applicable Medicare laws, regulations, and guidance;

   •	 used CMS’s National Claims History file to identify claims paid for hospital outpatient
      infusion therapy services that were provided as part of outpatient surgical procedures and
      infusion therapy, lithotripsy and blood administration services with more than one unit
      per day;



                                                3

      •	 contacted the hospital and requested that it determine whether the claims were

         overpayments and, if not, why the claims were not overpayments;


      •	 reviewed documentation provided by the hospital; and

      •	 discussed the overpayments with hospital personnel to determine why the overpayments
         occurred.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                                FINDINGS AND RECOMMENDATIONS

Payments received by the hospital from its Medicare contractor for 1,448 claims were not
appropriate. Each of these claims had errors relating to outpatient infusion therapy, lithotripsy,
or blood administration services. As a result, the hospital received overpayments totaling
$127,391. The hospital received $140,143 for 1,519 outpatient services, rather than the
allowable amount, $12,752 for 40 outpatient services, resulting in overpayments totaling
$127,391 for 1,479 outpatient services. The hospital stated that it received these overpayments
because it misinterpreted Medicare guidelines related to the billing for these services.

PAYMENT FOR SURGERY-RELATED INFUSION THERAPY SERVICES

The preamble to CMS’s Final Rule described packaged services as those that are directly related
and integral in the performance of certain outpatient procedures and services. 5 CMS does not
make separate payments for these directly related and integral services when performed as a
packaged service. The Final Rule identified these packaged services by the revenue codes that
hospitals usually use to bill Medicare for these services, not by the HCPCS codes. The Final
Rule identified nonchemotherapy intravenous infusion therapy (revenue code 0260) as a
packaged service when performed in conjunction with a related outpatient surgical procedure. 6

For 1,411 claims, the hospital billed and received payment for 1,419 nonchemotherapy infusion
therapy services provided during outpatient surgical procedures. These infusion therapy services
were not separately billable by the provider or payable by Medicare. As a result, the hospital
received overpayments of $117,098.




5
    See 65 Fed. Reg. 18433, 18450 (April 7, 2000).
6
    See 65 Fed. Reg. 18433, 18484 (April 7, 2000).


                                                     4

PAYMENT FOR OUTPATIENT SERVICES GREATER THAN ONE

For 37 claims, the hospital billed and received payment for excessive services because it billed
Medicare for services greater than one: 27 claims for excessive infusion therapy services,
5 claims for excessive lithotripsy services, and 5 claims for excessive blood administration
services.

Multiple Infusion Therapy Services

CMS’s Manual, chapter 4, section 230.2.1, limits infusion therapy for nonchemotherapy and
chemotherapy services to one service per visit, regardless of the number or volume of different
fluids infused for services furnished.

For 27 claims, the hospital billed and received payment for excessive services because it billed
Medicare for more than one infusion therapy service per visit. The hospital billed and received
payment for 80 infusion therapy services of which 50 were in excess of one per visit. The
hospital received $8,087 for these infusion therapy services, rather than the allowable amount,
$3,056, resulting in overpayments totaling $5,031.

Multiple Lithotripsy Services

CMS’s Manual, chapter 4, section 20.4, defines service units as “the number of times the service
or procedure being reported was performed.”

For five claims, the hospital billed and received payment for excessive treatments because it
billed Medicare twice for the same lithotripsy service. The hospital performed only one
lithotripsy service for each date of service, but billed for two lithotripsy services using operating
room revenue code 0360 with HCPCS code 50590. The hospital billed and received payment for
10 lithotripsy services of which 5 were not performed. The hospital received $13,302 for these
lithotripsy services, rather than the allowable amount, $8,868, resulting in overpayments totaling
$4,434.

Multiple Blood Administration Services

CMS’s Manual, chapter 4, section 231.8, states that providers should bill for blood transfusion
services (HCPCS code 36430) on a per service basis. Medicare will pay the provider for
transfusing blood products once per day, regardless of the number or volume of different blood
products transfused.

For five claims, the hospital billed and received payments for excess blood administration
services because it billed Medicare for more than one blood administration service for each date
of service. The hospital billed and received payment for 10 blood administration services of
which 5 were in excess of one per day. The hospital received $1,656 for these blood
administration services, rather than the allowable amount, $828, resulting in overpayments
totaling $828.




                                                 5

RECOMMENDATIONS

We recommend that the hospital:

   •	 return the $127,391 for the 1,479 outpatient procedure overpayments and

   •	 review claims with these outpatient services paid by the Medicare contractor after

      December 31, 2007, and return any overpayments identified.


HOSPITAL COMMENTS

In written comments, the hospital stated that it reviewed the 1,519 services billed and agreed that
the claims included payments for 1,479 services that Medicare did not cover. The hospital stated
that it received these overpayments because it misinterpreted Medicare guidelines related to the
billing for these services. The hospital’s comments are included in the Appendix.




                                                 6

APPENDIX

                                APPENDIX: PROVIDENCE HOSPITAL COMMENTS 





    ,~  HOSPITAL
        1150 Varnum Street, NE 

       Washington , DC 20017 

       (202) 269-7000
       'WWW. provhosp.org


             December 18, 2009

             Bernard Siegel, Audit Manager 

             Department of Health and Human Services 

             Office Of Audit Services Region III 

             150 S, Independence Mall West 

             Philadelphia, PA 19106-3499 


             Dear Mr, Siegel:

             This letter is written in follow up to the original inquiry regarding claims paid under
             Medicare's Hospital Outpatient Prospective Payment System (HOPPS). The services and
             claims identified included infusion therapy (HCPCS codes Q0081 through Q0085 and
             C8950, CPT codes 90761 and 90780), blood administration (CPT code 36430) and
             lithotripsy procedures (CPT code 50590) paid during calendar years 2003 - 2007.

             We have completed 100% review of the services and claims in question. At issue was
             the use of Modifier 59 and an interpretation of the use of this modifier for unbundled
             charges for services delivered during subsequent treatment within the same encounter.
             After review of the requested claims and CMS Transmittal 785, we have determined that
             the use of Modifier 59 and unbundling of these charges was an inadvertent error due to
             interpretation of the guidelines.

             Please advise of the next steps necessary to bring these matters to resolution.
             Please do not hesitate to contact me at (202) 269-7474 or via email at
             dmorriso@provhosp,org,

             Respectfully,


               ydi{' tv1 71'JAA_M-I-~
             Deborah A. Morrison, RN, MGA
             Vice PreSident, QI/RM




Member of the t&CEN..~ I,,<?N System serving metropOlitan WaShington, DC since "1861.

                            Heafthcare that Works · Hea/theare that is Safe · Healthcare that Leaves No One Behind
